No. 19-.

3fn tfje Supreme Court of tfje fHntteb States;
SEAN A. CLARK,
Petitioner,
v.
COMMISSIONER OF SOCIAL SERVICES,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Second Circuit
PETITION FOR WRIT OF CERTIORARI

Sean A. Clark
Petitioner Pro Se
93 4th Avenue 1172
New York, NY 10003-5213
(917) 242-2573
SEANTELLC_22@YAHOO.COM

November 6,2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

1

QUESTIONS PRESENTED
Petitioner’s public benefits were discontinued by
the Department of Social Services of New York (“DSS”)
on January 17, 2014, despite my alleged exemption
from work requirements due to my physical impair­
ments of disability. The administrative record in state
proceedings contained defects that were never corrected
such as mislabeling gender, designating me a drug user,
labeling me the wrong religion, listing me as deceased,
and having committed fraud occurred in an unknown
amount in 2014. Petitioner brought suit in the United
States District Court for the Southern District of New
York alleging fraud on the part of the New York
DSS and seeking to reinstate disability benefits. The
district court judge dismissed the summons and com­
plaint under Rule 12(b)(6), citing the Rooker-Feldman
doctrine, and Eleventh Amendment immunity.
The Questions Presented Are:
1. Can a federal district court review a state court
ruling, exempting the case via Rooker-Feldman pre­
clusion, where the state court judgment was allegedly
procured through fraud”, as has been held by the
United States Sixth Circuit Court of Appeals?
2. Is the statute of limitations tolled when a party
has submitted an expedited motion under FRAP 4(a)
(5) detailing his disability and the need for additional
time?

11

LIST OF PROCEEDINGS
United States Court of Appeals for the Second Circuit
Sean A. Clark v. Commissioner ofSocial Services
No. 19-1823
Decision Date: October 23, 2019

United States District Court for the Southern District
of New York
Sean A. Clark v. State Commissioner ofSocial Service
Department
No. 18 Civil 10038 (LAP)
Judgment Date: April 24, 2019
Order Date: April 23, 2019

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED...............................

1

LIST OF PROCEEDINGS..................................

11

TABLE OF AUTHORITIES...............................

vi

OPINIONS BELOW............................................

1

JURISDICTION...................................................

1

CONSTITUTIONAL AND
STATUTORY PROVISIONS........................

1

INTRODUCTION................................................

3

STATEMENT OF THE CASE............................

5

REASONS FOR GRANTING THE PETITION...... 14
I.

Respondent Made Numerous Material
False Declarations Tantamount to
Common Law Fraud....................................... 15
A. Common Law Fraud................................. 15
B. A Representation of Fact.......................... 15
C. Its Falsity................................................... 16
D. Its Materiality............................................ 17
E. The Representer’s Knowledge of Its
Falsity or Ignorance of Its Truth........ 18
F. The Representer’s Intent that It Should
Be Acted Upon By the Person in the
Manner Reasonably Contemplated......... 19
G. The Injured Party’s Ignorance of Its
Falsity......................................................... 19

IV

TABLE OF CONTENTS - Continued
Page
H. The Injuried Party’s Reliance on Its Truth.. 20
I.

The Injured Party’s Right to Rely Thereon.. 20

J. The Injured Party’s Consequent and
Proximate Injury...................................... 21
II. Double Jeopardy Analysis in Govern­
ment Initiated Civil and Criminal
Prosecutions................................................. 21
III. Petitioner Was Deprived of Substantive
Due Process................................................... 24
IV. Petitioner Was Deprived of Procedural
Due Process................................................... 29
V. Petitioner Still Qualifies for Disability
Benefits Due to Chronic, Extreme Back
Pain.................................................................. 31
CONCLUSION............................................................ 36

V

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
Order of the United States Court of Appeals for
the Second Circuit (October 23, 2019).............. la
Judgment of the United States District Court
Southern District of New York
(April 24, 2019).................................................... 3a
Order of the United States District Court
Southern District of New York
(April 23, 2019).................................................... 4a
Motion for Extension of Time to File Notice of
Appeal (June 19, 2019)........................................ 9a
Affidavit of Austin Taylor
(November 5, 2018)............................................ 11a
Reply Affidavit of Sean A. Clark
(April 23, 2014)................................................... 13a
Letter from Pete R. Juezan
(September 29, 1998).......................................... 16a

VI

TABLE OF AUTHORITIES
Page
CASES
American Rivers v. FERC,
201 F.3d 1186 (9th Cir. 2000)......................

12

De La Fuente v. FDIC,
332 F.3d 1208 (9th Cir. 2003).........................

18

Envtl. Def. Ctr. v. EPA,
344 F.3d 832 (9th Cir. 2003)........................

12

Forest Guardians v. U.S. Forest Serv.,
329 F.3d 1089 (9th Cir. 2003)......................

12

Gardner v. U.S. Bureau ofLand Mgmt.,
638 F.3d 1217 (9th Cir. 2011).......................

11

Greater Yellowstone Coalition v. Lewis,
628 F.3d 1143 (9th Cir. 2010)......................

11

High Sierra Hikers. Ass'n. v. Blackwell,
390 F.3d 630 (9th Cir. 2004)........................

11

Latino Issues Forum v. EPA,
558 F.3d 936 (9th Cir. 2009).........................

11

Marsh v. Oregon Natural Res. Council,
490 U.S. 360 (1989).........................................

12

Mayes v. Massanari,
276 F.3d 453 (9th Cir. 2001)...........................

18

Ninilchik Traditional Council v. United States,
227 F.3d 1186 (9th Cir. 2000)......................

12

Ocean Advocates v. U.S. Army Corps of
Engineers, 402 F.3d 846 (9th Cir. 2005).....

12

Vll

TABLE OF AUTHORITIES—Continued
Page
Safari Aviation Inc. v. Garvey,
300 F.3d 1144 (9th Cir. 2002)............

12

Schneider v. Chertoff,
450 F.3d 944 (9th Cir. 2006).............

12

Smolen v. Chater,
80 F.3d 1273 (9th Cir. 1996).............

18

Snoqualmie Indian Tribe v. FERC,
545 F.3d 1207 (9th Cir. 2008)............

12

United States v. Bean,
537 U.S. 71 (2002)..............................

11

Vernazza v. SEC,
327 F.3d 851 (9th Cir.), amended by
335 F.3d 1096 (9th Cir. 2003)...........

12

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. V,

passim

U.S. Const, amend. XI..

passim

U.S. Const, amend. XIV

passim

STATUTES
18U.S.C. § 1028....

6

18U.S.C. § 1030....

6

18 U.S.C. § 1623.....

7, 18, 19

28 U.S.C. § 1254(1)

1

42 U.S.C § 1983.....

14

vm
TABLE OF AUTHORITIES—Continued
Page
JUDICIAL RULES
CPLR Article 78.............

passim

Fed. R. App. P. 4(a)(5)....

1

Fed. R. Civ. P. Rule 26(c)

12

Sup. Ct. R. 12(b)(6)........

passim

Sup. Ct. R. 42(1)..............

21, 36

1

OPINIONS BELOW
Order of the Court of Appeals for the Second
Circuit dated on October 23, 2019 is added at App.la.
Judgment and Order of the United States District Court
for the Southern District of New York dated on April
24, 2019 is added at App.3a and App.5a.

JURISDICTION
The Second Circuit entered its judgment and
opinion on October 23, 2019. This Court has jurisdiction
pursuant to 28 U.S.C. § 1254(l).

■—HBh"—
CONSTITUTIONAL AND
STATUTORY PROVISIONS
U.S. Const, amend. V
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a pre­
sentment or indictment of a grand jury, except in
cases arising in the land or naval forces, or in
the militia, when in actual service in time of war
or public danger; nor shall any person be subject
for the same offense to be twice put in jeopardy of
life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be
deprived of life, liberty, or property, without due

2

process of law; nor shall private property be taken
for public use, without just compensation.
U.S. Const, amend. XI
The judicial power of the United States shall not
be construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United
States by citizens of another state, or by citizens
or subjects of any foreign state.
U.S. Const, amend. XIV § 1
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty,
or property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.
U.S. Const, amend. XIV § 5
The Congress shall have power to enforce, by
appropriate legislation, the provisions of this
article.
5 U.S.C. § 706(2)(a)
To the extent necessary to decision and when
presented, the reviewing court shall decide all
relevant questions of law, interpret constitutional
and statutory provisions, and determine the
meaning or applicability of the terms of an agency
action. The reviewing court shall—

3

(2) hold unlawful and set aside agency action,
findings, and conclusions found to be—
(A) arbitrary, capricious, an abuse of discre­
tion, or otherwise not in accordance with
law;
Sup. Ct. R. 12(b)(6)
Defenses and Objections: When and How Presented;
Motion for Judgment on the Pleadings; Consolidating
Motions; Waiving Defenses; Pretrial Hearing
(b) How to Present Defenses. Every defense to
a claim for relief in any pleading must be
asserted in the responsive pleading if one is
required. But a party may assert the following
defenses by motion:
(6) failure to state a claim upon which relief
can be granted;

INTRODUCTION
This case # 8877557c should have been closed after
the decision on January 17, 2014 from the Commis­
sioner’s designee decision stating, “The Agency’s deter­
mination to discontinue the appellant’s-petitioner public
assistance benefits because the appellant-petitioner
had failed, without good cause, to keep an appoint­
ment with the agency for the purpose of evaluating
the appellants-petitioner current status as exempt from
participating in work activities is correct”. I appealed
the decision under Article 78, “which encompasses
three writs: mandamus, prohibition, and certiorari.
An Article 78 proceeding serves as a uniform device

4

to challenge the activities of an administrative agency
in court”. The New York State judge decision on July
11, 2014 stated that “The application of prose petitioner
for an order pursuant to CPLR Article 78, annulling
and vacating the determination of respondent discon­
tinuing Public Assistance benefits of petitioner for
failure to attend a mandatory interview, is hereby
transferred to the Appellate Division, First depart­
ment”. However, the case was never transferred from
the judge decision order on July 11, 2014, if I hadn’t
of submitted all of the required paperwork to the
Manhattan Supreme Court in August of 2018 the
case would never have been transferred.
The respondent representative stated, “according
to the complaint, NYC-HRA improperly discontinued
Plaintiff s-petitioner disability benefits on January 17,
2014, despite Plaintiff s-petitioner alleged exemption
from work requirements due to his physical impair­
ments”. The medical statement and history would
suffice any court to believe that I am not able to work
and was discontinued unlawfully. Somehow documents
were altered or changed from a computer base system
regarding index number 400256/2014 and case
# 8877557c to change the authenticity of the document
to make it’s features different from the original docu­
ment. With today’s new technology hackers can change
documents easily on any computer terminal network.
When I’m typing a document in the public library
and proofreading that document to make sure it is
correct before I print it so that the document is in
original format, I noticed professional hackers can
see the document while I’m typing. Once the document
is printed some words are changed or misspelled in a
way that was not there before when I read the entire

5

document. Some librarians recommend that I print the
document on a private secure network so others won’t
see your work on a public computer network terminal.
Index number 400256/2014/ case # 8877557c documents
were changed in a way to label me something that I
am not. Human Resource Administration changed the
original context of the document relating to case
# 8877557c into a label that I am not, such as, labeling
me another gender, and labeling me another religion
instead of Christianity, and also labeling me as
deceased and a drug user.

STATEMENT OF THE CASE
The respondent stated, “The complaint must be
dismissed in its entirety for lack of subject matter
jurisdiction and failure to state a claim upon which
relief can be granted. “First, Plaintiff s-petitioner suit
against the state of New York for damages for past
injuries is jurisdictionally barred by the Eleventh
Amendment”. The Eleventh Amendment is waived
pursuant to the APA 5 U.S.C. § 706(2)(a) and tort law
which is “a civil wrong that causes a claimant to suffer
loss or harm resulting in legal liability for the person
who commits the tortious act”. Second, the respondent
stated, “notwithstanding the Eleventh Amendment’s
jurisdictional bar to suit, the Rooker-Feldman doctrine
also bars this action in its entirety. This Court lacks
jurisdiction to overturn the State Court Order because
a federal district court may not consider claims
brought by state-court losers complaining of injuries
caused by state-court judgments rendered before the

6

district court proceedings commenced and inviting
district court review and rejection of those judgments”.
“The Rooker-Feldman doctrine applies when four
requirements are met: (l) the federal plaintiffpetitioner lost in state court, (2) the plaintiff-petitioner
complains of injuries caused by the state court judg­
ment, (3) that judgment issued before the federal suit
was filed, and (4) the plaintiff-petitioner invites the
district court to review and reject the state court
judgment”.
The Rooker-Feldman cannot be implemented or
enforced in this litigation because of fraud and facts
stated by the sixth circuit which state, “An exception
to the Rooker-Feldman of just such an equitable per­
suasion has taken root. A few courts-most especially
the United States Court of Appeals for the Sixth Circuithave determined that the Rooker-Feldman does not
prevent the lower federal courts from reviewing state
court judgments that were allegedly procured through
fraud”. Third, the respondent stated in the Memoranda
of Law submitted on 1/14/2019 Dkt. # 18-cv-10038,
Plaintiff s-petitioner fraud claims under various
criminal statutes must be dismissed because the cited
criminal statutes do not provide a private cause of
action. Statute 18 U.S. Code § 1028 relates to “Fraud
and related activity in connection with identification
documents, authentication features, and information”.
Statute 18 U.S. Code § 1030 is, “fraud and related
activity in connection with computers”-“having know­
ingly accessed a computer without authorization or
exceeding authorized access, and by means of such
conduct having obtained information that has been
determined by the United States Government pursuant
to an Executive order or statute to require protection

7

against unauthorized disclosure for reasons of national
defense or foreign relations, or any restricted data”. 18
U.S. Code § 1623. False declarations. Since Index num­
ber 400256/2014 was disposed and unsettled then

embezzlement had to have occurred by using a
restricted area computer terminal to access certain
information. Statute 18 U.S. Code Chapter 47 relates
to “fraud and false statements”. If embezzlement still
occurs then false statements have to opposition itself
relating to Index number 400256/2014.
Since double jeopardy occurred in this litigation
the above statutes can be enforced. “The double jeop­
ardy clause of the Fifth Amendment prohibits placing a
person twice in jeopardy of life or limb for the same
offense”. Double Jeopardy is covered by the Fifth
Amendment of the U.S. Constitution which states, “No
person shall be held to answer for a capital, or other­
wise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor
shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property
be taken for public use, without just compensation”.
“Neither the multiple prosecution nor the multiple
punishment protections explicitly include or exclude
sanctions assessed in civil proceedings following crim­
inal prosecutions or in criminal prosecutions following
civil proceedings”. The Constitution bars double jeop­
ardy, period”. Double jeopardy relates to the certificate
of disposition documents that were attached to the

8

Motion for expedited relief I submitted on 7/1/2019 to
the U.S. court of appeals for the Second Circuit.
Fourth, the respondent stated, “Plaintiff has failed
to state a claim for violation of Title II of the ADA
upon which relief can be granted because he has
failed to plead that OTDA harbored discriminatory
animus or ill will toward him because of his disability”.
ADA of 1990 Title II, “prohibits discrimination on
the basis of disability in all services, programs, and
activities provided to the public by State and local
governments”. Title II of the ADA covers the programs,
activities, and services provided by public entities,
(state and local governments and their instrument­
alities and special purpose districts) Since I was
supposedly terminated from receiving public benefits
I was not able to receive adequate housing based on
limited income or receive the appropriate benefits for
day to day living. This violates the ADA of 1990deprivation of benefits policy. Finally, the respondent
preliminary statement from the memorandum of law
that was submitted to the district court on 1/11/2019
Dkt. # 18-cv-10038-# 18 states, “Plaintiff-petitioner
Fourteenth Amendment claims must be dismissed
because Plaintiff-petitioner has not sufficiently alleged
that OTDA violated his substantive or procedural
due process rights”. The Fourteenth Amendment
Section 1 states, “All persons born or naturalized in
the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the
state wherein they reside. No state shall make or
enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any state deprive any person of life, liberty, or
property, without due process of law; nor deny to any

9

person within its jurisdiction the equal protection of
the laws”. Due process means obtaining public bene­
fits without unlawfully being discontinued because of
unrelated work requirements which are exempt to
physical disabled recipients. ICCPR Articles 2-16 is
implemented so that foreign diplomats do not inter­
fere with federal jurisdiction proceedings pertaining
to the United States Constitutional law guidelines
and boundaries.
The district judge stated in the decision order
dated 4/23/2019 Dkt. # 18-cv-10038-# 39 that, “with
respect to his motion for a default judgment, plaintiffpetitioner claims that he served defendant-respondent
on November 5, 2018”. “He argues that defendantrespondent’s failure to respond within thirty days
entitles him to a default judgment”. I wrote the district
judge a letter to disregard the default judgement on
the docket sheet # 8-Dkt. # 18-cv-10038 because the
process server sent the summons & complaint to the
wrong address, which was 112 State Street Room 600,
Albany, New York 12207. The correct address was
served twice. Once on 1/23/2019 at: 28 Liberty Street
15th floor, New York, New York 10005 by process
server and on 1/25/2019 by process server at: 28
Liberty Street 16th floor, New York, New York 10005.
Not only was the address wrong but the caption was
wrong also. The correct caption should be [Sean A.
Clark, Appellant-petitioner v. State Commissioner of
Social Services, Appellee-respondent]. Departments
should never have been added to the caption. In
my motion I submitted on 7/1/2019 I stated I was
misinformed of the caption when I first filed the peti­
tion for an Article 78 proceedings. Again, a petitioner

10

should never be misled when pursuing a civil lawsuit
with inaccurate information.
The district judge stated in the decision order
dated 4/23/2019-dkt. # 18-CV-10038-# 39, “to survive a
motion to dismiss under Rule 12(b)(6), the plaintiffpetitioner must plead enough facts to state a claim to
relief that is plausible on its face”. “A court must
accept all well-pleaded facts as true and must draw
all reasonable inferences in favor of the plaintiffpetitioner”. “Rule 12(b)(6) of the Federal Rules of Civil
Procedure tests the form and sufficiency of a state­
ment of a claim under the liberalized pleading rule.
However, since the Federal Rules attempted to adopt
the successes and avoid the failures’ of code pleading,’
the purpose of Rule 12(b)(6) seems to conflict with the
purpose of modern pleading.’ Although the liberal
pleading rule generally allows a plaintiff to set forth
a claim in a short and plain statement, Rule 12(b)(6)
allows a court to dismiss a complaint before the develop­
ment of the proceeding. The problem is when and how
a Rule 12(b)(6) motion is to be granted. Although it
has been said that a Rule 12(b)(6) motion is rarely
granted, the district court has granted a Ride 12(b)(6)
motion and the court of appeals has reversed or vacated
that grant in a considerable number of cases. There
are conflicting views on the interpretation of Rule 12
(b)(6)”. “The Federal Rules and other statutes adopted
various devices which have diminished the functions
of Rule 12(b)(6). Behind the policy there is a basic
precept that the primary objective of the law is to
obtain a decision on the merits of any claim; and that
a case should be tried substantially on the merits
rather than technically on the pleading”, (https://

11

scholarship.law.campbell.edu/cgi/viewcontent.cgi?
article=1249&context=clr)
The case was dismissed quickly before I could
address the merits of the case. My medical condition
alone would suffice any court of law that I have
supportive details on the merits and that I am unable to
work on any level or occupation. The respondent never
answered the summons & complaint pertaining to
embezzlement of index # 400256/2014. Fraud occurred
in an unknown amount in 2014 after the decision by
the Article 78 judge on 7/11/2014 and the issue was
never addressed by the respondent. The district judge
stated in the decision order dated 4/23/2019 dkt. # 18cv-10038-# 39, “A pro se plaintiffs-petitioner claim
must be construed liberally and interpreted to raise
the strongest arguments they suggest”. My detailed
medical condition which is explained below and fraud
relating to index # 400256/2014 raises enough dis­
covery for a judgement in my favor. The administrative
file was never transferred in 2014 due to embezzlement
in an unknown amount. Again the Eleventh Amend­
ment is waived pursuant to the APA 5 U.S.C. § 706
(2)(a). See Greater Yellowstone Coalition v. Lewis, 628
F.3d 1143, 1148 (9th Cir. 2010)
“Pursuant to the APA, an agency decisions may
be set aside only if arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.”
See United States v. Bean, 537 U.S. 71, 77 (2002);
Gardner v. U.S. Bureau ofLandMgmt., 638 F.3d 1217,
1224 (9th Cir. 2011); Latino Issues Forum v. EPA,
558 F.3d 936, 941 (9th Cir. 2009); High Sierra,
Hikers Ass’n., 390 F.3d at 638; Public Util. Dist. No.
1, 371 F.3d at 706. The law the respondent refers to

12

is Rule 12(b)(6) which I already explained above. The
case was dismissed without each argument being
thoroughly investigated and contested pertaining to
fraud from index # 400256/2014. For this reason, the
Rooker-Feldman doctrine cannot be enforced because
of fraud and the eleventh amendment is waived
pursuant to the APA 5 U.S.C. § 706(2)(a) “The arbi­
trary and capricious standard is appropriate for
resolutions of factual disputes implicating substantial
agency expertise”. See Marsh v. Oregon Natural Res.
Council, 490 U.S. 360, 376 (1989); Safari Aviation
Inc. v. Garvey, 300 F.3d 1144, 1150 (9th Cir. 2002);
Ninilchik Traditional Council v. United States, 227
F.3d 1186, 1194 (9th Cir. 2000). “The reviewing court
must determine whether the decision was, based on a
consideration of the relevant factors and whether there
has been a clear error of judgment”. See Marsh, 490
U.S. at 378; Ocean Advocates, 402 F.3d at 859; Forest
Guardians v. U.S. Forest Serv., 329 F.3d 1089, 1097
(9th Cir. 2003); Envtl. Def. Ctr., 344 F.3d at 858 n.36.
There has been a clear error of judgement based on
fraud, and defects in the administrative record that
were never corrected. “An agency’s interpretation or
application of a statute is a question of law reviewed
de novo”. See Snoqualmie Indian Tribe v. FERC, 545
F.3d 1207, 1212 (9th Cir. 2008); Schneider v. Chertoff,
450 F.3d 944, 952 (9th Cir. 2006); Vernazza v. SEC,
327 F.3d 851, 858 (9th Cir.), amended by 335 F.3d
1096 (9th Cir. 2003). “An agency’s interpretation of
its statutory mandate is also reviewed de novo”. See
amended by 335 F.3d 1096 (9th Cir. 2003); American
Rivers v. FERC, 201 F.3d 1186, 1194 (9th Cir. 2000).
“Under FRCP Rule 26(c), a district court may stay
discovery during the pendency of a motion to dismiss

13

upon a showing of good cause”. “Looking to the
particular circumstances and posture of each case,
courts consider (l) [the] breadth of discovery sought,
(2) any prejudice that would result, and (3) the strength
of the motion”. “As to the strength of the motion to
dismiss, it must be supported by substantial arguments
for dismissal, i.e., the movant must make a strong show­
ing that the plaintiff s-petitioner claim is unmeritorious”. “Unless otherwise limited by court order, the
scope of discovery is as follows: Parties may obtain
discovery regarding any non-privileged matter that is
relevant to any party’s claim or defense and propor­
tional to the needs of the case, considering the impor­
tance of the issues at stake in the action, the amount
in controversy, the parties’ relative access to relevant
information, the parties’ resources, the importance of
the discovery in resolving the issues, and whether
the burden or expense of the proposed discovery out­
weighs its likely benefit. Information within this
scope of discovery need not be admissible in evidence
to be discoverable”. The first discovery is the misinfor­
mation pertaining to the correct caption of the case.
In 2014, I was misinformed of the caption which
led to a scheme of embezzlement. The second discovery
is the respondent made a false statement in the
Memorandum of law that was submitted on 1-14-2019
dkt. # 18-cv-10038-# 39 when stating that the case was
transferred shortly after the decision from the Article
78 Judge on 7/11/2014. The case was not transferred
shortly after per judge order. If I had not of sub­
mitted a subpoena to the Supreme Court of Manhattan
the case never would have been transferred. The
third discovery is a falsified stipulation to obtain my
gold bars from my estate account with my signature

14

from illegal certified mail. I’ve requested that all of
my gold bars be returned to my estate account and
refurbished but to no avail I was denied. The burden
of proof is fraud from index # 400256/2014 and medical
description that support my claim in its entirety. The
eleventh amendment is waived pursuant to the APA
5 U.S.C. § 706(2)(a) and tort law.

REASONS FOR GRANTING THE PETITION
Since the case was disposed and unsettled on July
11, 2014 embezzlement still occur by a unknown govern­
ment official entity, or vigilante. Sovereign immunity
is waived pursuant to section 5 U.S.C. § 706(2)(a) of
the APA which states, the agency action is “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law”; and tort law which states, “in
common law jurisdictions, is a civil wrong that causes
a claimant to suffer loss or harm resulting in legal
liability for the person who commits the tortious act”,
https ://www.patentofficelawsuit.info/apa_act. htm
The respondent states in the Memorandum of Law
submitted on 1/11/2019 dkt. 18-cv-10038(# 18) that,
“[T]o state a 42 U.S.C. § 1983 claim for denial of pro­
cedural due process, a plaintiff-petitioner must demon­
strate that he possessed a protected liberty or property
interest, and that he was deprived of that interest
without due process”. Case # 8877557c is a case that
has been open for more than ten years and the defects
of labels were never corrected. Because of these
defects in the administrative record all of these cases

15

in this court were not in my favor: 10-5273, 13-6208, 138865, 14-5566, 14-5568, 14-5858, 14-8118, 16-6495.
I.

Respondent Made Numerous Material False
Declarations Tantamount to Common Law
Fraud.
A. Common Law Fraud

“Under common law, three elements are required
to prove fraud: a material false statement made with
an intent to deceive (scienter), a victim’s reliance on
the statement and damages”. “In the United States,
common law generally identifies nine elements needed
to establish fraud: (l) a representation of fact; (2) its
falsity; (3) its materiality; (4) the representer’s know­
ledge of its falsity or ignorance of its truth; (5) the
representer’s intent that it should be acted upon by
the person in the manner reasonably contemplated; (6)
the injured party’s ignorance of its falsity; (7) the
injured party’s reliance on its truth; (8) the injured
party’s right to rely thereon; and (9) the injured party’s
consequent and proximate injury.”
B. A Representation of Fact
I’ve provided substantial admissible evidence of
Procedural due process to show that the respondent
made a false declaration when stating that the admin­
istrative file was transferred on or around July 11,
2014 the day an Article 78 New York State Judge
made a decision order annulling and vacating the case,
which means the case is disposed and unsettled due
to fraud. The administrative file was never transferred
on that day or around that date. The administrative
file should have been transferred to the Appellant Di-

16

vision, First Department per judge’s order after my
proof of service to the county clerk’s office of New
York was submitted on 8/20/2014. Also, I was mis­
informed when I first applied for a petition in 2014.
The court representative gave me the wrong informa­
tion in regards to the caption. Departments should
never have been added to social services. The case
should not have been dismissed under Rule 12(b)(6), the
Rooker-Feldman doctrine, and the eleventh amend­
ment. A claim is stated for relief but fraud occurred
regarding index # 400256/2014 in an unknown amount.
The Rooker-Feldman cannot be enforce because of
fraud and the eleventh amendment immunity is waived
per APA 5 U.S.C. § 706(2)(a).

C. Its Falsity
Respondent states, “suits against states and their
officials seeking damages for past injuries are firmly
foreclosed by the Eleventh Amendment”. The eleventh
amendment is waived pursuant to the APA 5 U.S.C.
§ 706(2)(a) which states, “arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with
law”; tort law which states, “is a civil wrong that causes
a claimant to suffer loss or harm resulting in legal
liability for the person who commits the tortious act”,
and the fourteenth amendment section 5. which states,
“No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any per­
son of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the
equal protection of the laws”. The respondent cannot
implement or enforce the Rooker-Feldman doctrine
because of fraud that occurred in 2014 relating to index

17

number # 400256/2014. The exception to the RookerFeldman is “of just such an equitable persuasion has
taken root. A few courts-most especially the United
States Court of Appeals for the Sixth Circuit-have
determined that the Rooker-Feldman does not pre­
vent the lower federal courts from reviewing statecourt judgments that were allegedly procured through
fraud”. “In other words, when a state-court loser
complains that the winner owes his triumph not to
sound legal principles—or even unsound ones—but
to fraud, then the loser is not really complaining of
an injury caused by a state-court judgment, but of an
injury caused by the winner’s chicanery”. On
10/24/2019 the United States court of appeals for the
second circuit dismissed the case as moot and untimely
but this is not a moot case because the expedited
relief sought occurred through fraud which violates
the APA 5 U.S.C. § 706(2)(a) and I submitted a motion
form under FRAP 4(a)(5) for an extension of time
which was received and stamped on 6/19/2020 because
I was not feeling well due to my entitled disability.
(https://www.fclr.org/fclr/articles/html/2010/baker.pdf)
D. Its Materiality
The material which is the decision order from an
Article 78 New York State Judge dated 7/11/2014 and
Proof of Service to the County Clerk's office of New
York dated 8/20/2014 was attached to the complaint
on October 31, 2018. The decision order on 7/11/2014
states, “The application of pro se petitioner for an order
pursuant to CPLR Article 78, annulling and vacating
the determination of respondent discontinuing Public
Assistance (PA) benefits of petitioner for failure to
attend a mandatory interview, is hereby transferred

18

to the Appellate Division, First Department”. “Accord­
ingly, it is hereby ordered, that petitioner is directed
to serve a copy of this order with notice of entry upon
all parties and file proof thereof with the Office of the
County Clerk, who is directed to transfer this action
to the Appellate Division, First Department”. Proof of
service to the county clerk’s office of New York was
served on 8/20/2014. However when I first applied for
the petition I never received the proper material to
start the petition, like the appropriate caption.
E. The Representer’s Knowledge of Its Falsity or
Ignorance of Its Truth
The respondent is aware of the false declaration
that was made in the memorandum of law that was
submitted on January 14, 2019 which violates statute,
18 U.S. Code § 1623. Substantive Due Process is a pre­
deprivation remedy that was made from the Commis­
sioner’s designee on 1/17/2014 stating, “The Agency’s
determination to discontinue the Appellant-petitioner
Public Assistance benefits because the Appellantpetitioner had failed, without good cause, to keep an
appointment with the Agency for the purpose of
evaluating the Appellant’s-petitioner’s current status
as exempt from participating in work activities is
correct”. “The substantial evidence standard requires
the appellate court to review the administrative record
as a whole, weighing both the evidence that supports
the agency’s determination as well as the evidence that
detracts from it”. See De la Fuente, 332 F.3d at 1220
(reviewing the record as a whole); Mayes v. Massanari,
276 F.3d 453, 458-59 (9th Cir. 2001); Smolen v. Chater,
80 F,3d 1273, 1279 (9th Cir. 1996). The Procedural
due process is a post-deprivation remedy which was

19

made by an Article 78 New York State Judge on
7/11/2014 who stated that the case is annulled and
vacated which means the case was essentially over­
turned from the Commissioner’s designee decision on
1/17/2014.
F. The Representer’s Intent that It Should Be
Acted Upon By the Person in the Manner
Reasonably Contemplated
The Eleventh Amendment is waived and the
Rooker-Feldman Doctrine is not enforced or imple­
mented in this litigation because it violates my constitu­
tional right which is the 14th amendment section 5
which states, “No State shall make or enforce any
law which shall abridge the privileges or immunities
of citizens of the United States; The “APA 5 U.S.C.
§ 706(2)(a) which states, “arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with
law”; and tort law which states, “is a civil wrong that
causes a claimant to suffer loss or harm resulting in
legal liability for the person who commits the tortious
act”.
G. The Injured Party’s Ignorance of Its Falsity
For the record, I was not ignorant of the respond­
ent’s false declaration under statute 18 U.S. Code
§ 1623 or the fact that I was misled with false infor­
mation when I first applied to file for a petition. The
clerk receptionist should have informed me of the right
caption when I first apphed in 2014 but this was a
falsified stipulation to try and obtain my gold bars
from my estate account.

20

H. The Injured Party's Reliance on Its Truth
The truth of the matter is that the respondent
made a false declaration when stating that the admin­
istrative file index number # 400256/2014 was trans­
ferred to the Appellant Division, First Department on
7/11/2014 or shortly after. The file was not transferred
on that particular date nor was it transferred on
8/20/2014 the day I submitted my proof of service
document to the County Clerk’s Office of New York.
Another truth is that I was misled by falsified infor­
mation when I first applied for my lawsuit with the
wrong caption. The last truth is that the Eleventh
Amendment is waived pursuant to APA 5 U.S.C.
§ 706(2) (a) which states, “arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with
law”; and tort law which states, “is a civil wrong that
causes a claimant to suffer loss or harm resulting in
legal liability for the person who commits the tortious
act”. Also The Rooker-Feldman doctrine cannot be
enforced in this action because of fraud and the
above exception by the sixth circuit.
I. The Injured Party’s Right to Rely Thereon
This is a given fact that the decision made by the
Article 78 New York State judge on 7/11/2014 is a post­
deprivation remedy which is a procedural due process.
The Judge stated on 7/11/2014 that, “The application of
pro se petitioner for an order pursuant to CPLR
Article 78, annulling and vacating the determination
of respondent discontinuing Public Assistance (PA)
benefits of petitioner for failure to attend a mandatory
interview, is hereby transferred to the Appellate
Division, First Department”. “Accordingly, it is hereby
ordered, that petitioner is directed to serve a copy of

21

this order with notice of entry upon all parties and
file proof thereof with the Office of the County Clerk,
who is directed to transfer this action to the Appel­
late Division, First Department”. The administrative
file was never transferred because fraud occurred in
2014 relating to index # 400256.
J. The Injured Party’s Consequent and Proximate
Injury
The injury caused prevented me from getting
adequate housing and the appropriate resources to live
a sustainable life. Since this case pertains to index
number # 400256/2014 fraud in an unknown amount,
Under Rule 42(l) I’m requesting interest and damages
retroactively to the date the embezzlement began which
is 7/11/2014.
II. Double Jeopardy Analysis in Government
Initiated Civil and Criminal Prosecutions.
I was arrested in 2012 for sitting in the park in a
designated restricted area designed for kids to play.
If you are not accompanied with a child or toddler
then you are not allowed in that area. I did not read
the small print sign that was on the gate during my
entrance and there were no kids in the area at this
time because it was around noon time and I had just
bought a sandwich and cold beverage fruit drink from
the local convenient store and when I started to eat
my sandwich and continue to read my book two law
enforcement officers came inside the park and arrested
me. The charges were later dismissed and dropped
but vigilantes can use criminal justice law to acquire
monetary funds from a civil lawsuit but not after the
case was dismissed and sealed on 8/12/2013. Although

22

the judge that dismissed the case said sitting in a
park and minding your own business is not a crime I
still had to keep coming to court to contest the
charges. The sealing documents were attached to my
Memorandum of Law that was submitted on 3/20/2019
Dkt. # 18cvl0038.
“The double jeopardy clause of the Fifth Amend­
ment prohibits placing a person twice in jeopardy of
life or limb for the same offense. Centuries before its
incorporation into the bill of rights the prohibition
against double jeopardy was securely entrenched in
English common law practice. In interpreting and
applying the clause, the court’s double jeopardy deci­
sions have considered both the history of the clause
and the clause’s underlying interests in finality and
fairness”, (https://www.jstor.org/stable/1073192?seq=
3# metadata_info_tab_contents) Double Jeopardy is
covered by the Fifth Amendment of the U.S. Constitu­
tion which states, “No person shall be held to answer
for a capital, or otherwise infamous crime, unless on
a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the
Militia, when in actual service in time of War or
public danger; nor shall any person be subject for the
same offence to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use, without
just compensation”. “Neither the multiple prosecution
nor the multiple punishment protections explicitly
include or exclude sanctions assessed in civil proceed­
ings following criminal prosecutions or in criminal
prosecutions following civil proceedings” “The Consti-

23

tution bars double jeopardy, period”. “In an 1873 case,
Ex Parte Lange,” the Supreme Court rejected this
narrow conception of the clause’s prohibitions. Ex Parte
Lange not only clarified and expanded the scope of
the double jeopardy clause, it also explained that
“the Constitution was designed as much to prevent
the criminal from being twice punished for the same
offence as from being twice tried for it.” A great deal of
doubt surrounds the applicability of the double jeopardy
clause in situations involving a criminal prosecution
and a prior or subsequent civil suit. Over fifty years
ago, the Supreme Court stated that “Congress may
impose both a criminal and a civil sanction in respect
to the same act or omission.” According to the Court’s
modern interpretation, the double jeopardy clause
provides three analytically distinct protections.
A defendant-respondent may not be subjected to
“[l] a second prosecution for the same offense after
acquittal; [2] a second prosecution for the same offense
after conviction; and [3] multiple punishments for
the same offense.” The Commissioner’s designee deci­
sion was on 1/17/2014 which is after the sealing of
the last Certificate of Disposition # 504014 dismissed
date of 8/12/2013. The other three Certificate of Dis­
position # 504013, # 504012, and # 504011 were dis­
missed on 2/15/2005, 12/20/2004 and 7/14/2004. These
cases pertain to metro cards not working properly
when registered on a bus and sitting in a park minding
my own business. Since all of these cases were sealed
before the Commissioner’s designee decision they
should not have been opened for embezzlement and
leaked to my driver’s license. This violates the 5th
amendment which states, “No person shall be held to
answer for a capital, or otherwise infamous crime,

24
unless on a presentment or indictment of a grand
jury, except in cases arising in the land or naval forces,
or in the militia, when in actual service in time of
war or public danger; nor shall any person be subject
for the same offense to be twice put in jeopardy of life
or limb; nor shall be compelled in any criminal case
to be a witness against himself, nor be deprived of
life, liberty, or property, without due process of law;
nor shall private property be taken for public use,
without just compensation.” “The clauses incorporated
within the Fifth Amendment outline basic constitu­
tional limits on police procedure”. “The guarantee of
due process for all persons requires the government to
respect all rights, guarantees, and protections afforded
by the U.S. Constitution and all applicable statutes
before the government can deprive any person of life,
liberty, or property”. For vigilantes to acquire monetary
funds through civil court settlements they have to
open sealed court documents that have already been
sealed which violates the 5th Amendment of the U.S.
Constitution and double jeopardy clause.
in. Petitioner Was Deprived of Substantive Due

Process.
Substantive due process “is the notion that due
process not only protects certain legal procedures,
but also protects certain rights unrelated to procedure”.
When the Commissioner’s designee dismissed my
benefits on 1/17/2104 for supposedly good cause and
the Article 78 judge vacated the decision this was the
proper method for using the substantive due process
based on a pre-determined decision that was based
on assumptive medical facts. As I stated above referring
to Common Law Fraud that Substantive Due Process is

25
a pre-deprivation remedy that was made from the
Commissioner’s designee on 1/17/2014. Apparently, it
was a process designed to temporarily discontinue my
benefits until the next level of appeal. “The Fourteenth
Amendment’s Due Process Clause is not a secret repos­
itory of substantive guarantees against unfairness”.
“The Due Process Clause protected individuals from
state legislation that infringed upon their “privileges
and immunities” under the federal Constitution”.
“The Constitution states only one command twice.
The Fifth Amendment says to the federal government
that no one shall be “deprived of life, liberty or property
without due process of law.” The Fourteenth Amend­
ment, ratified in 1868, uses the same eleven words,
called the Due Process Clause, to describe a legal obli­
gation of all states. These words have as their central
promise an assurance that all levels of American
government must operate within the law (“legality”)
and provide fair procedures”. When the Commissioner’s
designee discontinued my benefits on 1/17/2014 fair
procedures were not implemented but rather a resolu­
tion designed to get me the recipient to work. “The
clause also promises that before depriving a citizen of
life, liberty or property, government must follow fair
procedures. Thus, it is not always enough for the
government just to act in accordance with whatever
law there may happen to be. Citizens may also be
entitled to have the government observe or offer fair
procedures, whether or not those procedures have
been provided for in the law on the basis of which it
is acting. Action denying the process that is “due”
would be unconstitutional”. “The Constitution does
not require “due process” for establishing laws; the pro­
vision applies when the state acts against individuals

26

“in each case upon individual grounds”—when some
characteristic unique to the citizen is involved. Of
course there may be a lot of citizens affected; the issue
is whether assessing the effect depends “in each case
upon individual grounds.” “Substantive due process
is to be distinguished from procedural due process.
The distinction arises from the words “of law” in the
phrase “due process of law”. “Procedural due process
protects individuals from the coercive power of govern­
ment by ensuring that adjudication processes, under
valid laws, are fair and impartial. Such protections,
for example, include sufficient and timely notice on
why a party is required to appear before a court or
other administrative body, the right to an impartial
trier of fact and trier of law, and the right to give
testimony and present relevant evidence at hearings.
In contrast, substantive due process protects individ­
uals against majoritarian policy enactments that ex­
ceed the limits of governmental authority: courts
may find that a majority’s enactment is not law and
cannot be enforced as such, regardless of whether the
processes of enactment and enforcement were actually
fair”.
In this case the Commissioner’s designee did not
use good majority leadership when stating that the
decision was based on good cause when in actuality
the decision was not based on good cause but rather
a medical assumption. “The term “substantive due
process” itself is commonly used in two ways: to identify
a particular line of case law and to signify a particular
political attitude toward judicial review under the
two due process clauses”. “When a law or other act of
government is challenged as a violation of individual
liberty under the Due Process Clause, courts now use

27

two forms of scrutiny or judicial review. The inquiry
balances the importance of the governmental interest
being served and the appropriateness of the method
of implementation against the resulting infringement
of individual rights. If the governmental action infringes
upon a fundamental right, the highest level of review,
strict scrutiny, is used. To pass strict scrutiny, the
law or the act must be both narrowly tailored and the
least restrictive means of furthering a compelling
government interest. If the governmental restriction
restricts liberty in a manner that does not implicate
a fundamental right, rational basis review is used,
which determines whether a law or act is rationally
related to a legitimate government interest. The govern­
ment’s goal must be something that it is acceptable for
the government to pursue. The legislation must use
reasonable means to the government’s goals but not
necessarily the best. Under a rational basis test, the
burden of proof is on the challenger so laws are rarely
overturned by a rational basis test. There is also a
middle level of scrutiny, called intermediate scrutiny,
but it is used primarily in Equal Protection cases,
rather than in Due Process cases”: “The standards of
intermediate scrutiny have yet to make an appearance
in a due process case.” “To pass intermediate scrutiny,
the challenged law must further an important govern­
ment interest by means that are substantially related
to that interest”. It’s never acceptable to use the
wrong standard of procedure when making a decision
that is not based on the facts but rather the assump­
tion. This assumption of good cause is why the deci­
sion was vacated by an Article 78 judge on 7/11/2014.
https://www.law.cornell.edu/wex/
substantive_due_process

28
https://www.law.cornell.edu/wex/due_
process
https://en.wikipedia.org/wiki/Substantive_
due_process
“The due process of law guarantee is an effort—one
with deep roots in the history of western civilization—
to reduce the power of the state to a comprehensible,
rational, and principled order, and to ensure that
citizens are not deprived of life, liberty, or property
except for good reason. What sorts of reasons are “good”
is obviously a normative question, but notwithstanding
the arguments of many critics of substantive due
process, the Due Process Clause invites—indeed,
requires—courts and legal scholars to take seriously
the idea that there are real answers to such normative
questions. Though contemporary discourse often treats
normative matters as essentially irrational, subjective
preferences, the Due Process Clause is based on the
opposite premise: that law and arbitrary command,
justice and mere force genuinely differ. And the idea
of a lawful political order depends on recognizing
that difference. In short, procedural guarantees are
constructed out of substantive guarantees. This dual
character of the lawfulness requirement bars the
government from using any kind of force which pre­
tends law,” whether it be an act of “mere force,” or “a
malicious ensnarement under colour of law, or if the
arbitrariness resides in the harshness of the law it­
self.” https://object.cato.org/sites/cato.org/files/articles/
Sandefur-H JLPP-v3 5n 1 .pdf

29

IV. Petitioner Was Deprived
Process.

of

Procedural Due

Procedural due process, “is a legal doctrine in
the United States that requires government officials
to follow fair procedures before depriving a person of
life, liberty, or property. When the government seeks
to deprive a person of one of those interests, procedural
due process requires at least for the government to
afford the person notice, an opportunity to be heard,
and a decision made by a neutral decision maker.
Procedural due process is required by the Due Process
Clauses of the Fifth and Fourteenth Amendments to
the United States Constitution”. (https://en.wikipedia.
org/wiki/Procedural_due_process)
The most obvious requirement of the Due Process
Clause is that states afford certain procedures (“due
process”) before depriving individuals of certain inter­
ests (“life, liberty, or property”). Although it is probably
the case that the framers used the phrase “life, liberty,
or property” to be a shorthand for important inter­
ests, the Supreme Court adopted a more literal inter­
pretation and requires individuals to show that the
interest in question is either their life, their liberty,
or their property-if the interest doesn’t fall into one of
those three boxes, no matter how important it is, it
doesn’t qualify for constitutional protection”. In my
case I was deprived of all three required elements of
the constitution. I was deprived of living life without
adequate funding. I was deprived of liberty without
the basic needs of adequate resources which limits a
recipient’s day to day activities, and I was deprived
of property by the embezzlement of my section 8
voucher which was processed in 2006. “The Due Process

30

Clause is essentially a guarantee of basic fairness.
Fairness can, in various cases, have many components:
notice, an opportunity to be heard at a meaningful
time in a meaningful way, a decision supported by
substantial evidence, etc. In general, the more
important the individual right in question, the more
process that must be afforded. No one can be deprived
of their life, for example, without the rigorous protec­
tions of a criminal trial and special determinations
about aggravating factors justifying death. On the
other hand, suspension of a driver’s license may occur
without many of the same protections”. I’m not on
any criminal trial and my driver’s license have not
been suspended, http://law2.umkc.edu/faculty/projects/
ftrials/conlaw/proceduraldueprocess.html
“Procedural Due Process, unlike its textual sibling,
Substantive Due Process, is fairfy self-evident from
the words of the Constitution themselves. As stated in
the Due Process Clause, “[N]or shall any State deprive
any person of life, liberty, or property, without due
process of law.” Meaning, if there is some government
action (the federal government also being subject to
these requirements through the 5th Amendment)
seeking to deprive a person of life, liberty or property,
then the government is required to afford some
minimum amount of procedure to allow the person
being deprived to reasonably defend himself or her­
self. Once there is some life-interest, liberty-interest,
or (much more regularly) property-interest at stake,
the government must provide the person with both
reasonable notice and a reasonable opportunity to be
heard”. When I had an opportunity to be heard from
an Article 78 judge by writing a ten page document
about my medical condition, the Article 78 judge

31

vacated the decision by the Commissioner’s designee
on 1/17/2014. https://constitutionallawreporter.com/
amendment-14-01/procedural-due-process/
V.

Petitioner Still Qualifies for Disability
Benefits Due to Chronic, Extreme Back Pain.

My entitled Social Security disability consist of
chronic back physical impairments to the lower spine
due to a sports injury. The onset date of my disability
is July of 2002 but I have been entitled of a physical
disability since 2012. “Chronic pain is pain that persists
for three months or longer, even after the original
cause has healed and can in itself become a major
focus of disability or dysfunction”. Most common types
of back pain originate in one or more of three places
in the back: “The bones of the spine (the vertebrae),
the muscles, tendons and ligaments attached to these
bones, and the nerves that come from the spinal cord
that weave in and out of the spine. Structural changes
in bones or soft tissue can press on nerves which
results in pain. In some conditions the nerves them­
selves become inflamed and this causes the pain”.
Discogenic back pain (herniated (slipped) disc)
occurs when the cushioning, shock-absorbing discs
between the vertebrae malfunction or break, slipping
out of position and pinching spinal nerves”. “Spondy­
lolisthesis occurs when one vertebrae in the spinal
column slips forward over another. This disrupts the
whole integrity of the spine, destabilizing it. When
the spine is destabilized the vertebrae pull on muscles,
ligaments and other discs, compressing nerves and
causing pain. The sciatic nerve is actually a collection
of spinal nerves joined together at the lower part of the
spine. At the end of the spine the sciatic nerve splits

32

in two sending branches through the buttocks and
down the back of each leg all the way to the feet.
When any one nerve in this group gets irritated or
compressed it sends pain signals to all of the other
nerves and this pain can extend all the way down the
leg”. If I am walking, sitting, or standing for prolong
periods I will get a shooting-pain feeling down my
right leg near the hip area. “Nociceptive pain is pain
caused by stretching, pressure, or injury to tissues,
muscles or organs anywhere in the body and includes
aches or pains deep within the body”. There are
damaged tissue organs at the L3/L4 level of my lower
back spine which causes nociceptive pain. There is a
central disc protrusion at the L5/S1 level of my lower
spine abutting the SI nerve roots bilaterally which
causes neuropathic pain. At the L3/L4 and L5/S1
level of my lumber spine there is a degenerative disc
disease which is known as disc herniation. “When a
disc herniation occurs the cushion that sits between
the spinal vertebrae is pushed outside its normal
position”.
At the L3/L4, L4/L5, and L5/S 1 level there is a
diffuse bulging disc. A bulging disc can cause discomfort
and disability in various parts of the body, depending
on the location of the affected disc. “A bulging disc
occurs when one of the discs between your vertebrae
develops a week spot and pops out beyond its normal
perimeter. In the lower back, the damaged disc can
cause pain to travel to the hips, buttocks, legs and
feet. In the upper back, the pain would radiate from the
neck down the arm and to the fingers. Approximately
90% of bulging discs occur in the lower back or lumbar
area of the spine. The most common lumbar bulging
disc is seen around levels L4-L5 (Lumbar segment 4

33
and 5) or L5-S1 (Lumbar segment 5 and sacral seg­
ment l), which causes in the L5 nerve or SI nerve. If
the bulging disc impinges on the sciatic nerve in the
lower back it can lead to back problem called sciatica.
On the other hand if the bulging disc is located in the
neck it is called a cervical bulging disc. Sciatica is
caused by irritation of the sciatic nerve. The sciatic
nerve can be pinched or stretched. A herniated disc
(sometimes called a slipped disc) is the most common
cause of sciatica. Discs are the cushions between the
bones in the back. Disc typically degenerate in stages:
the first stage is often a bulging disc, when the disc
inner material called nucleus pulposus moves beyond
its normal parameters and pushes into the thick
outer wall, called the annulus fibrosus creating a bulge.
A bulging disc is said to involve more than half (more
than 180 degrees) of the disc circumference”. (See http:
//www.laserspineinstitute.com/back_problems) Clinical
laboratory diagnosis noted in my lumbar spine that
there is straightening of the lumbar lordosis which is
the curve at the base of the spine. If you look at your
back from the side, you will see that your spine
naturally curves inwards at the neck and your lower
back curves outwardly in the middle. Each person
may have variations in the shape and size of these
curves.
In my case, my lumbar lordosis naturally curves
when sitting in an upward position, this is known as
sway back posture. So straightening of the lumbar
lordosis will only harm or rupture the damaged degen­
erative disc. Furthermore, at the L3/L4 level there is
a central canal stenosis (lumbar spinal stenosis) which
is a disease that is caused by a gradual narrowing of the
spinal canal. (See www.spine-health.com)

34

“The sacroiliac joint (or SI joint) located at the
L5/S1 level connects the sacrum and the iliac crest to
support the spine and hips. The joint is small and
strong and held together by tough fibrous ligaments.
The pain is similar to sciatica and other back pain
issues. The sagittal (T1 and T2)-relates to or denotes
the suture on top of the skull which runs between the
parietal bones in a front to back direction”. Spondylosis
is located at the L5/S1 level and refers to a situation
where there is degeneration of the spine. (Degeneration
in the lower back-lumbar spondylosis) There is evidence
for subluxation which is when one or more of the bones
of your spine (vertebrae) move out of position and
create pressure on or irritate spinal nerves. Spinal
nerves are the nerves that come out from between each
of the bones in your spine. This pressure or irritation
on the nerves then causes those nerves to malfunction
and interfere with the signals traveling over those
nerves”.
My chronic back pain symptoms which are, disc
protrusion, disc degeneration, spondylosis, straight­
ening of the lumbar lordosis, sublaxation, osteophytes,
and central canal stenosis are classified as chronic
fatigue syndrome (CFS). “Chronic Fatigue Syndrome is
a systemic disorder consisting of a complex of symptoms
that may vary in incidence, duration, and severity.
The current case criteria for CFS, developed by an
international group convened by the centers for Disease
Control and Prevention (CDC) as an identification
tool and research definition include a requirement for
four or more of a specified list of symptoms. These
constitute a patient’s complaint as reported to a
provider of treatment”.

35

My chronic back pain impairments has lasted for
more than six months and more than twelve months
and will continue to last upon the point of death. As
of now, my chronic back pain condition impairments
has lasted for more than seventeen years since July
of 2002. My chronic lower back pain is also known as
chronic pain syndrome (CPS) which demonstrates a
tremendous amount of long lasting and structurally
illogical symptoms. “In some cases, the diagnosis is
made when structural issues may be the underlying
causation but symptoms do not correlate clinically or
previous treatment attempts have since resolved the
structural issues yet the pain remains or even worsens”.
“Chronic pain syndrome is theorized to exist due to
nerve damage or scar tissue”. Diagnostics noticed at
the L5/S1 level of my lower lumbar spine there is an
interval increase in the central disc protrusion abutting
the SI nerve roots bilaterally. Disability law defines
a disability “as a physical or mental impairment that
substantially limits one or more of the major life
activities or an individual. Also a record of such an
impairment or being regarded as having such an
impairment. An individual who has a record of a
physical impairment that substantially limits a major
life activity is within the statute even if that person
was previously misclassified as having such impair­
ment”. (See Americans with Disabilities Act of 1990).
My chronic back pain impairment prevents me from
doing any kind of substantial, sedentary, or menial
work. Good cause consists of an entitled physical disa­
bility person who has a degenerated disc disease
which therefore exempts him from participating in
any work requirement activities. However, I am able

36

to continue my education at a high level curriculum
mental capacity.

CONCLUSION
Under Rule 42(1) I request that this court grant my
petition for writ of certiorari because of factual evidence,
false information by the respondent, burden of proof,
admissible evidence, mislead information, and defects
in the administrative record. Also, I’m requesting all
of my gold bars from my estate account are returned
and refurbish them as they were before they were
stolen and to correct all label defects in the adminis­
trative record. For the record, I am a male, a hetero­
sexual, a protestant Christian, and I never indulged in
any drug substances. I am a native American in
this country. Both of my parents were born in this
country and both of my grandparents were born in
this country, https://lawshelf.com/courseware/entry/
jurisdiction-over-the-subject-matter-of-the-actionsubject-matter-jurisdiction
Respectfully submitted,
Sean A. Clark
Petitioner Pro Se
93 4th Avenue 1172
New York, NY 10003-5213
(917) 242-2573

!

SEANTELLC_22@YAHOO.COM

November 6,2019

